  Office of Inspector General
       Audit Report


  FAA FACES SIGNIFICANT BARRIERS TO
SAFELY INTEGRATE UNMANNED AIRCRAFT
 SYSTEMS INTO THE NATIONAL AIRSPACE
               SYSTEM
       Federal Aviation Administration

        Report Number: AV-2014-061
         Date Issued: June 26, 2014
           U.S. Department of
                                                                Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FAA Faces Significant Barriers To                                      Date:    June 26, 2014
           Safely Integrate Unmanned Aircraft Systems Into
           the National Airspace System
           Federal Aviation Administration
           Report No. AV-2014-061

  From:    Matthew E. Hampton                                                          Reply to
                                                                                       Attn. of:   JA-10
           Assistant Inspector General
             for Aviation Audits

    To:    Federal Aviation Administrator

           The Federal Aviation Administration (FAA) forecasts there will be roughly 7,500
           active Unmanned Aircraft Systems (UAS) 1 in the United States in 5 years, with
           over $89 billion invested in UAS worldwide over the next 10 years. Unmanned
           aircraft range in size from those smaller than a radio-controlled model airplane to
           those with a wingspan as large as a Boeing 737. These aircraft can serve diverse
           purposes, such as enhancing border security, monitoring forest fires, and aiding
           law enforcement, as well as potential commercial use, such as food and package
           delivery. Due in part to the safety risks associated with integrating UAS into the
           National Airspace System (NAS), FAA authorizes UAS operations only on a
           limited, case-by-case basis. While the capabilities of unmanned aircraft have
           significantly improved, they have a limited ability to detect, sense, and avoid other
           air traffic.

           Concerned with the progress of integrating UAS into the NAS, Congress
           established specific UAS provisions and deadlines for FAA in the FAA
           Modernization and Reform Act of 2012. 2 These actions include publishing a
           5-year roadmap, establishing six test ranges, and completing the safe integration of
           UAS into the NAS by September 2015. The Chairmen and Ranking Members of
           the Senate Commerce Committee and the House Committee on Transportation and
           Infrastructure, and those Committees’ Aviation Subcommittees, requested that we
           assess FAA’s progress in these efforts. Accordingly, our audit objectives were to
           1
             UAS consist of systems of aircraft and ground control stations where operators control the movements of aircraft
           remotely.
           2
             Pub.L. No. 112-095 (2012).
                                                                                                                   2


assess (1) FAA’s efforts to mitigate safety risks for integrating UAS into the NAS,
and (2) FAA’s progress and challenges in meeting the UAS requirements cited in
the act.

We conducted this review in accordance with generally accepted Government
auditing standards. Exhibit A details our scope and methodology, and exhibit B
lists the specific organizations we visited or contacted.

RESULTS IN BRIEF
Significant technological, regulatory, and management barriers exist to safely
integrate UAS into the NAS. First, following many years of working with
industry, FAA has not reached consensus on standards for technology that would
enable UAS to detect and avoid other aircraft and ensure reliable data links
between ground stations and the unmanned aircraft they control. Second, FAA has
not established a regulatory framework for UAS integration, such as aircraft
certification requirements, standard air traffic procedures for safely managing
UAS with manned aircraft, or an adequate controller training program for
managing UAS. Third, FAA is not effectively collecting and analyzing UAS
safety data to identify risks. This is because FAA has not developed procedures for
ensuring that all UAS safety incidents are reported and tracked or a process for
sharing UAS safety data with the U.S. Department of Defense (DoD), the largest
user of UAS. Finally, FAA is not effectively managing its oversight of UAS
operations. Although FAA established a UAS Integration Office, it has not
clarified lines of reporting or established clear guidance for UAS regional
inspectors on authorizing and overseeing UAS operations. Until FAA addresses
these barriers, UAS integration will continue to move at a slow pace, and safety
risks will remain.

FAA is making some progress in meeting UAS-related provisions of the FAA
Modernization and Reform Act of 2012, but the Agency is significantly behind
schedule in meeting most of them, including the goal of achieving safe integration
by September 2015. FAA has completed 9 of the act’s 17 UAS provisions, such as
selecting 6 test sites, publishing a UAS Roadmap, 3 and developing a
comprehensive plan outlining FAA’s UAS plans in the near- and long-term.
However, the Agency missed the statutory milestones for most of these provisions,
and much work remains to fully implement them. FAA is also behind schedule in
implementing the remaining eight UAS provisions. For example, FAA will not
meet the August 2014 milestone for issuing a final rule on small UAS operations. 4
FAA’s delays are due to unresolved technological, regulatory, and privacy issues,

3
 The Roadmap is a guide outlining FAA’s plans for integrating UAS into the NAS over a 5-year period.
4
 The rule is intended to establish operating and performance criteria for small UAS (under 55 pounds) in the NAS that
are operated within line-of-sight of a pilot or ground observer below 400 feet.
                                                                                                                      3


which will prevent FAA from meeting Congress’ September 30, 2015, deadline
for achieving safe UAS integration. As a result, while it is certain that FAA will
accommodate UAS operations at limited locations, it is uncertain when and if full
integration of UAS into the NAS will occur.

We are making recommendations to enhance the effectiveness of FAA’s efforts to
safely integrate UAS into the NAS.

BACKGROUND
Although some UAS technology has existed for many years, there are currently
only a limited number of UAS authorized to operate in U.S. airspace. FAA
authorizes UAS operations by issuing Certificates of Waiver or Authorization
(COA) for public use 5 and Special Airworthiness Certificates in the experimental
and restricted categories for civil (private sector) use. Without authorization, FAA
states that commercial operations are prohibited. 6 There are currently about 300
active public-use authorizations, 18 experimental special airworthiness
certificates, and 2 restricted category airworthiness certificates for over 100
aircraft types.

UAS can vary widely in size and serve a variety of purposes, from military
training and law enforcement to research and commercial. Figure 1 depicts
examples of large and small unmanned aircraft.

Figure 1. Examples of Large and Small Unmanned Aircraft




            Source: FAA

Regardless of aircraft size, significant differences between unmanned and manned
aircraft make their integration into the NAS more difficult to achieve. For
example, unlike manned aircraft, UAS pilots operate unmanned aircraft on the


5
  Public use UAS are flown by Federal, state, or local governmental agencies.
6
  In June 2013, FAA issued a civil penalty against an individual for allegedly operating a UAS for commercial purposes
in a careless or reckless manner and endangering life or property. In an appeal of this case, an administrative law judge
at the National Transportation Safety Board (NTSB) found that the UAS in question was a “model aircraft,” not an
“aircraft,” and therefore not subject to any binding FAA regulation. FAA has appealed the decision to the full NTSB.
OIG takes no position on the merits of the legal positions taken by the parties.
                                                                                   4


ground from either a remote control device or a ground control station, such as
that depicted in figure 2.

Figure 2. Example of a UAS Ground Control Station




                         Source: OIG

From the ground, pilots control the movements and operation of an unmanned
aircraft via a radio or satellite-based communication data link. In addition, air
traffic facilities interact with UAS using various technologies, such as radar.
Figure 3 details the systems that work together to form a UAS.

Figure 3. Example of an Unmanned Aircraft System




Source: OIG

Given the complex systems and data communications involved in UAS, the
integrity, stability, and security of the link between the ground control station and
the unmanned aircraft are critical to the safe operation of the UAS. An interruption
in the data link is known as a “lost link.” A lost link event, which could last for a
                                                                                                                   5


second or several minutes, could pose a significant safety risk because direct
control of the aircraft by the pilot on the ground has been lost.

BARRIERS LIMIT PROGRESS WITH UAS INTEGRATION INTO
THE NAS
Although FAA is taking steps to advance UAS operations, significant
technological barriers remain, limiting FAA’s progress in achieving safe
integration. In addition, FAA has not yet achieved consensus on regulatory
standards for integrating UAS into the NAS, including defining minimum
performance and design certification standards. FAA faces further challenges
because the Agency has yet to develop standardized air traffic control (ATC)
procedures specific to the unique characteristics of UAS, and the Agency has not
established a sufficient framework for sharing and analyzing safety data from
UAS operators. Finally, organizational barriers—such as a lack of clear lines of
reporting for UAS staff—are further impeding FAA’s progress in integrating and
overseeing UAS operations.

Technological Challenges Impede UAS Integration
FAA’s efforts to integrate UAS depend on ensuring that UAS technology is
advanced and robust enough to operate safely in the same airspace as manned
aircraft. However, two technological barriers that pose significant UAS safety
risks are delaying FAA’s goals. First, because there are no pilots on board, a UAS
cannot comply with the “see and avoid” 7 requirements that underpin operational
safety in the NAS. However, there is currently a lack of a mature UAS technology
capable of automatically detecting other aircraft operating in nearby airspace and
successfully maneuvering to avoid them. Experts we interviewed stated that
“detect and avoid” is the most pressing technical challenge to integration.

Second, UAS must maintain an adequate link to ground control commands to
ensure that pilots never lose control of their aircraft. However, UAS still lack the
adequate technology to prevent “lost link” scenarios—disruptions between the
ground based operator and the aircraft—which creates significant safety
challenges for both controllers and operators. For example, in August 2010, the
Navy temporarily lost contact with a UAS helicopter due to a software issue,
which resulted in the aircraft flying into restricted airspace surrounding
Washington, DC. Additionally, according to a report from the Aviation Safety
Reporting System 8 in March 2012, a UAS operating at an altitude of 20,000 feet
lost the control link between the ground operator and the aircraft for several
7
  While FAA 14 CFR 91.113 speaks of a pilot’s ability to “see and avoid” other aircraft and objects, the UAS
community is using the term “detect and avoid” to describe the desired capability of UAS.
8
  The Aviation Safety Reporting System collects, analyzes, and responds to voluntarily submitted aviation safety
incident reports in order to lessen the likelihood of aviation accidents.
                                                                                6


minutes. The unmanned aircraft descended to 19,000 feet without authorization
from air traffic control.

To address these technological barriers, there are several research projects
underway at FAA and other agencies, such as DoD and the National Aeronautics
and Space Administration (NASA). For example, FAA has research that will test
communications between ground operators and unmanned aircraft as well as
determine the amount of aircraft traffic information a UAS pilot needs to
successfully execute a collision avoidance maneuver. Additionally, DoD is
currently testing a ground-based detect and avoid system.

FAA has also conducted detect and avoid research in addition to research projects
on other UAS-related topics, such as maintenance and repair, human factors, test
sites, and operational assessments (see table 1). FAA budgeted $4.2 million to
conduct UAS research in fiscal year 2013 and $8.6 million in fiscal year 2014.

Table 1. FAA’s Technical Center UAS Research and
Development Portfolio for Fiscal Year 2013–2014
Focus Area                         Number of Research Tasks

Detect and Avoid                               9

Control and Communications                     5

UAS Maintenance and Repair                     1

UAS Human Factors                              1

UAS Test Sites                                 1

UAS Operational Assessments                    2

Total for FY 2013                             19

Source: OIG analysis of FAA data

A related unresolved issue is securing adequate radio frequencies for UAS
operations. While some UAS-specific radio frequencies exist, it is uncertain how
many are needed and whether there will be licensing, control and communications
standards, and security vulnerabilities. FAA is currently working with industry to
develop standards for UAS radio frequencies and to determine how these issues
will be addressed.
                                                                                                                  7


FAA Has Not Achieved Consensus on Regulatory Standards Despite
Several Years of Effort
FAA has not established a regulatory framework for integrating UAS into the
NAS. This includes defining minimum performance and design certification
standards and issuing rules describing when and how UAS are authorized to
operate in U.S. airspace. Instead, FAA currently allows UAS operations only on a
case-by-case basis, either under COA 9 procedures with restrictions, or Special
Airworthiness Certificates in the experimental or restricted category. In both cases,
the applicant submits a standardized application to FAA. FAA reviews each
application to ensure that the prospective operator has mitigated safety risks to an
acceptable degree. However, to move beyond case-by-case authorizations, FAA
will need to establish standards and guidance in the following areas:

• Performance Standards—FAA has not reached consensus among
  Government and industry stakeholders on minimum performance standards for
  UAS, despite working with a special RTCA 10 advisory committee for over
  9 years. According to RTCA, this lack of progress is due to the unique
  challenges presented by UAS and the large project scope. To help accelerate
  this effort, in March 2013, RTCA formed a new UAS committee with a
  narrower focus. This new committee will focus on more detailed standards for
  detect and avoid capabilities and command and control links. In the near term,
  the focus will be on operations at higher altitudes, which are tailored for larger
  UAS currently operated by the military.

•   Certification Standards—FAA has not established standards necessary for
    designing, manufacturing, and certifying new UAS to operate in the NAS.
    Currently, FAA has no design standards for civil (private sector) UAS. As a
    result, FAA cannot certify any new UAS or provide guidance to UAS
    manufacturers regarding the design specifications required for certification.

    FAA has taken steps to begin certifying civil UAS by establishing “pathfinder”
    projects, through which FAA certificated the first two aircraft in July 2013.
    While authorizing the first commercial UAS operations was an important step,
    FAA’s pathfinder projects used an existing certification rule aimed at
    repurposing surplus military aircraft for civilian use, rather than addressing
    some of the novel aspects of UAS, which will be needed to certify UAS for
    widespread operations. FAA officials told us they are evaluating the lessons


9
  Certificate of Waiver or Authorization: Certificates which permit UAS operated by public agencies in the NAS, with
restrictions.
10
   Organized in 1935 as the Radio Technical Commission for Aeronautics, RTCA, Inc., is a private, not-for-profit
corporation that develops consensus-based recommendations regarding communications, navigation, surveillance, and
air traffic management (CNS/ATM) system issues. It functions as a Federal Advisory Committee.
                                                                                                                     8


     learned from this process to develop standards for more widespread industry
     use.

• Categorizing UAS—FAA currently separates UAS into only two classes—
  those under 55 pounds and those 55 pounds and greater, which does not
  adequately account for the different performance characteristics across a wide
  range of UAS. In contrast, DoD has five distinct classes of UAS categorized by
  weight and other characteristics such as speed and altitude capabilities. DoD
  officials we spoke with said grouping UAS into classes is an important step in
  setting certification standards; the most stringent standards are reserved for the
  heaviest and most capable UAS. In March 2013, a UAS rulemaking committee
  of subject matter experts 11 recommended that FAA apply weight distinctions
  that are currently established for manned aircraft. However, the committee did
  not reach consensus on the need for additional classifications. While the report
  recommended specific weight classifications, it also noted that further work
  was needed to determine what other criteria (e.g., performance and
  complexity) may be necessary for classifying unmanned aircraft in the future.

In addition, FAA has not resolved many other critical issues related to regulatory
requirements and standards, including UAS pilot and crew 12 qualifications, ground
control stations, and command and control reliability. Table 2 lists some of the
areas where regulations, standards, and guidance are needed for UAS operations.
Without such a regulatory framework, UAS will continue to operate with
significant limitations in the NAS.




11
   The UAS Aviation Rulemaking Committee Terminology and Categorization Action Team was tasked with
investigating and providing recommendations on the best way to classify civil UAS.
12
   Crew in addition to the pilot can include ground-based crew who assist the Pilot in Command (PIC) with determining
UAS proximity to other aviation activities and assist the PIC with not operating beyond the visual line of sight limit.
                                                                                                               9


Table 2. Examples of Aviation Safety Regulatory Development
Needs for UAS
 Unmanned Aircraft             Pilot and Crew          Control Station              Data Link
 • Policy                      • Policy                 • Policy                     • Policy
 • Certification               • Certification          • Certification              • Certification
   Requirements                  Requirements             Requirements                 Requirements
 • Technical Standards         • Operational            • Technical                  • Technical Standards
                                 Standards                Standards
 • Performance                                                                       • Airworthiness
   Standards                   • Procedures             • Airworthiness                Standards
                                                          Standards
 • Airworthiness               • Regulations                                         • Interoperability
   Standards                                            • Interoperability             Requirements
                               • Guidance
                                                          Requirements
 • Procedures                    Material                                            • Dedicated Aviation
                                                        • Guidance Material            Radio Frequency
 • Regulations/                • Training
                                                                                       Spectrum
   Guidance                      Requirements           • Maintenance
                                                          Requirements               • Standardized Control
 • Measures of                 • Medical                                               Architectures
   Performance                   Standards              • Means of
                                                          Compliance                 • Link Security
 • Maintenance
                                                                                       Requirements
   Requirements

Source: OIG analysis of FAA data

FAA Has Not Established Standardized UAS Procedures and Training
for Air Traffic Controllers
Currently, although FAA has authorized some UAS to operate in the NAS at select
locations, such as along the Nation’s borders, 13 the Agency has not developed the
procedures, training, and tools for controllers to effectively manage UAS in the
same airspace as other aircraft. Controllers told us they must segregate UAS from
other traffic. For example, controllers at one air traffic control facility handling
large UAS operations told us that they always moved manned aircraft away from
UAS because they were not aware of the specifics of individual UAS missions and
performance characteristics, such as differing airspeed capabilities and rates of
climb.

While FAA has provided interim guidance 14 on air traffic policies and procedures,
air traffic personnel expressed concerns about the lack of training and guidance in
certain areas, such as how to handle a “lost link” event. In addition to our
interviews, controllers at air traffic facilities nationwide have filed similar
complaints about limited UAS guidance and training through its Air Traffic Safety


13
   The U.S. Customs and Border Protection, within the Department of Homeland Security, deploys UAS for border and
port surveillance.
14
   FAA Order N JO 7210.846, Unmanned Aircraft Operations in the National Airspace System (NAS).
                                                                                                                  10


Action Program (ATSAP). 15 Although FAA established a corrective action plan in
January 2013 to address controllers’ concerns, 16 along with rolling out an online
UAS course in July 2013 to provide some preliminary training, the Agency does
not expect to fully implement the corrective action plan until September 2015.

The National Transportation Safety Board (NTSB) raised similar concerns several
years ago following its investigation 17 of a Customs and Border Protection UAS
that crashed near a home in Arizona in 2006. Because of the lack of standardized
air traffic procedures for UAS, NTSB recommended that FAA require periodic
operational reviews between UAS operators and local ATC facilities to clearly
define responsibilities and actions required for UAS operations. The NTSB
recommendation is currently classified as “Open.” In August 2013, FAA provided
NTSB with actions taken to address its recommendation, such as updates to
internal guidance and plans to present UAS information to controllers at a safety
forum. However, in November 2013, NTSB determined these actions were not
sufficient to close the recommendation and asked FAA for additional information.

Furthermore, FAA has not provided adequate automated tools for managing UAS
traffic, largely because FAA’s air traffic control equipment was not developed
with UAS operations in mind. For example, controllers told us that the En Route
Automation Modernization (ERAM) system, a controller automation system for
processing flight data for high altitude flights, cannot yet adequately manage UAS
flight plans because they contain an unusually large amount of navigational data.
This forces controllers to implement manual and time-consuming “work-arounds”
for handing off UAS between facilities and airspace sectors.

The challenges FAA faces in safely integrating UAS into the NAS were further
illustrated in the results of a July 2012 study, which simulated UAS operations at
small- to medium-sized airports. 18 The study found that introducing only four
unmanned aircraft into the simulated airspace system had significant impacts on
safety, efficiency, and controller workload. For example, controllers did not fully
understand the safety consequences (e.g., potential traffic conflicts) of lost link
events. Further, lost link events increased controller workload, affected the
manageability of the traffic in the airspace, resulted in increased numbers of
aborted aircraft landings, and appeared to reduce controllers’ situational
awareness. The study concluded that multiple, simultaneous UAS operations in the
small- to medium-sized airport environment were not yet feasible. FAA plans to

15
   The Air Traffic Safety Action Program is a voluntary safety reporting program for air traffic personnel that enable
them to report air traffic safety events and retain confidentiality.
16
   FAA Corrective Action Request, January 9, 2013.
17
   NTSB Safety Recommendation A-07-67. Letter to FAA dated October 24, 2007.
18
   FAA, “Multi-UAS Operational Assessment: Class D Airspace Simulation Report,” July 2012. According to an FAA
official, the purpose of the study was to intentionally stress the system to determine whether the Agency needs to
develop new policies or perform further research. The study was conducted at the William J. Hughes Technical Center.
                                                                                                                  11


conduct additional simulations assessing the impact of UAS on more complex and
active airspace.

FAA also has to carry out safety assessments for any change to the NAS that could
affect safety, including UAS. To complete these assessments, FAA plans to
complete Safety Risk Management Documents 19 for all classes of NAS airspace,
which will identify the corresponding risks of UAS operations in that airspace. As
of March 2014, FAA had completed only 2 of 12 planned safety risk assessments.

FAA Has Not Developed an Adequate Framework for Sharing and
Analyzing UAS Safety Data
FAA’s efforts to integrate UAS are further limited because the Agency has not
obtained comprehensive data on UAS operations. Because integrating UAS into
the NAS is in the early stages, any and all data regarding the safety of UAS
operations are paramount to understanding and mitigating hazards that may
arise. 20 FAA routinely collects safety data from current public use UAS operators
as required by the agreements with each operator. However, the Agency does not
know whether it is receiving a sufficient amount of data from UAS operators
because it has not established a process to ensure that operators report all incidents
as required.

In addition, FAA has not reached agreement with DoD on exchanging the most
useful data. For example, FAA’s Office of Accident Investigation and Prevention
receives annual UAS mishap data from DoD under a Memorandum of Agreement.
However, FAA’s UAS integration staff told us they do not find these data useful
because they lack detail. Although DoD has a wealth of other operational data,
such as airworthiness data, FAA has been unable to obtain the data, despite
requesting it nearly 2 years ago. DoD has been reluctant to provide some data to
FAA due to concerns regarding the release of sensitive information and
uncertainty over who would bear the cost of retrieving the information. FAA has
now formed a data-sharing team with DoD representatives to resolve this issue. In
June 2013, FAA began a series of meetings with DoD representatives to discuss
obtaining pertinent DoD operational data, such as pilot training standards and air
traffic control lessons learned.

In addition, recognizing that the Agency needs a better data management strategy,
FAA tasked MITRE 21 to develop a system to collect and better analyze UAS

19
   Safety Risk Management Documents are formal documentation of a completed Safety Risk Management process.
20
   In manned aircraft operations, tracking and analyzing operational failures and malfunctions of aircraft or ground
systems has provided valuable insight into and has improved the effectiveness of both design and operational safety
controls; it also has aided in root-cause investigations.
21
   MITRE Corporation manages a Federally Funded Research and Development Center (FFRDC) for the FAA known
as the Center for Advanced Aviation System Development (CAASD). CAASD is a unique organization that assists
FAA with scientific research and analysis.
                                                                                                12


safety data. According to FAA, it expects MITRE to complete this initiative in
September 2015.

Organizational Barriers Impede FAA’s Progress in Integrating and
Overseeing UAS Operations in the NAS
Integrating UAS operations into the NAS presents significant organizational and
management challenges, in part because many stakeholders, both internal and
external, must collaborate to bring about UAS integration, as shown in table 3.

Table 3. Key UAS Stakeholders
Internal Stakeholders                               External Stakeholders
Flight Standards (AFS)                              RTCA

Air Traffic Organization (ATO)                      Industry

Aircraft Certification (Design and Manufacturing)   Other Government Agencies

NextGen Organization                                MITRE

William J. Hughes Technical Center                  Academia

Joint Planning Development Office (JPDO)            International Civil Aviation Organization (ICAO)

Source: OIG analysis of FAA data

In March 2012, due to the increasing demands for expanded UAS integration,
FAA appointed a new senior executive position to head a new UAS office—the
UAS Integration Office within its Flight Standards division. This office
consolidates Aviation Safety and Air Traffic Organization (ATO) personnel with
UAS expertise into a single organization. However, while ATO personnel were
assigned and actively working in the office, it took well over a year to complete
the internal agreement necessary to establish roles and responsibilities between
ATO and the UAS Integration Office and to establish administrative authority
with the senior executive in charge. In addition, the office is not yet fully staffed—
it has lost 6 people since November 2012 and has identified the need for an
additional 20 positions.

Assuming these issues are resolved, the UAS Integration Office will still need to
interface with personnel in ATO who must develop airspace policy that considers
the operational needs of both manned and unmanned aircraft. Beyond the ATO,
the office will also have to reach out across other FAA lines of business and
offices, such as Aircraft Certification and Next Generation Air Transportation
System (NextGen) organizations.
                                                                                                               13


Questions remain regarding the placement, authority, and structure of the new
UAS Integration Office, which is currently located within FAA’s Office of
Aviation Safety (AVS). Government and industry stakeholders expressed concerns
about the Office’s ability to coordinate and align resources and to make decisions
within its current structure. These actions will become more important as the
integration of UAS advances, and as FAA moves from planning to
implementation. A UAS rulemaking working group 22 recently recommended that
the UAS Integration Office be placed at a higher level within FAA in order to
have the necessary authority and access to other FAA lines of business and offices.

Another unresolved organizational issue relates to managing UAS oversight,
particularly for regional UAS safety inspectors. These inspectors receive work
assignments from the UAS Integration Office, but report to the Regional Flight
Standards Division Managers, resulting in competing priorities for the same
resources. In addition, regions are inconsistent regarding how they review and
process COA applications. For example, one region has developed its own tools to
better depict airspace and expedite the approval process. Although FAA officials
stated that at least one other office is using a similar tool now, none of the other
regions we reviewed use this tool.

Further, regional UAS safety inspectors do not conduct onsite inspections of UAS
operations for various reasons, such as resource constraints and unclear guidance
regarding oversight authority. While FAA issued guidance in January 2013 that
provides necessary policies for evaluating proposed UAS operations and describes
the details a COA applicant should have in place, the guidance does not clearly
detail what actions an inspector should take in overseeing a UAS operator.

FAA DEVELOPED A ROADMAP FOR UAS INTEGRATION BUT IS
STILL BEHIND IN MEETING STATUTORY PROVISIONS
In the FAA Modernization and Reform Act of 2012, Congress established multiple
provisions for integrating UAS and set a deadline of September 30, 2015, for UAS
integration. FAA recently reached an important milestone by issuing its UAS
Roadmap—a guide outlining FAA’s plans for integrating UAS into the NAS over
a 5-year period. However, the Agency is behind schedule on most of the act’s
UAS provisions, and the magnitude of unresolved safety and privacy issues will
prevent FAA from meeting Congress’ September 2015 deadline for UAS
integration.



22
   This group, known as the Implementation Plan Working Group (IPWG), consists of subject matter experts from the
UAS Aviation Rulemaking Committee. The IPWG Civil UAS Integration Plan, May 2013, details implementation
steps for FAA’s Civil UAS Integration Roadmap.
                                                                                                             14


Overall, the act cited a total of 17 UAS-related provisions with corresponding
deadlines. See exhibit C for details on FAA’s progress on all 17 provisions. The
established deadlines for 9 of these 17 provisions have already passed. While FAA
has now met these nine provisions, much work remains to fully implement the
initiatives. For example:

• UAS Test Sites—FAA reviewed proposals from 25 applicants in 24 States,
  and announced the selection of 6 test sites in December 2013. However, FAA
  has not developed goals for what it intends to accomplish with the test sites
  once they are established. According to FAA, the Agency cannot direct the
  research activities of the six test sites and specify outcomes because there is no
  Federal funding. Moreover, FAA was late meeting a related milestone—to
  have at least one test range operational by February 2013. Due to the delays in
  selecting test sites and evaluating applicants, the first range did not become
  operational until April 2014.

• UAS Roadmap—FAA issued its UAS Roadmap in November 2013—an
  important step toward UAS integration. However, while the Roadmap contains
  goals, metrics, and target dates, it lacks the detail or authority of a formal
  implementation plan, and FAA states that the dates are “targets” rather than
  “commitments.” FAA plans to update these details as the Agency learns more
  from ongoing UAS operations and research.

• Comprehensive plan—The act called for a comprehensive UAS plan to be
  submitted to Congress by February 2013 that sets the overarching, interagency
  goals, objectives, and approach for integrating UAS into the NAS. The Joint
  Planning and Development Office (JPDO) 23 issued a UAS comprehensive plan
  in November 2013, 9 months behind schedule. According to JPDO
  management, these delays were due to difficulties coordinating FAA internal
  documents with other JPDO member agencies. 24

• Simplified COA process—FAA has changed the COA process to an online
  application system and established goals for reduced approval times, which,
  according to FAA, has shortened the process from over 200 days to as little as
  60 days. FAA also signed a memorandum of understanding with the
  Department of Justice on March 4, 2013, which streamlined the process for


23
   JPDO was created to manage the partnerships that will implement the NextGen transportation system. NextGen
includes satellite navigation and control of aircraft, advanced digital communications, and enhanced connectivity
between all components of the national air transportation system. JPDO stakeholders include private industry,
academia, and governmental departments and agencies.
24
   JPDO member agencies are: White House Office of Science and Technology, Department of Defense, Department of
Commerce /National Oceanic and Atmospheric Administration, Department of Homeland Security, National
Aeronautics and Space Administration, Federal Aviation Administration, Office of the Director of National
Intelligence.
                                                                                                          15


    State and local law enforcement agencies to operate UAS legally and safely.25
    However, work remains to develop agreements with other agencies.

• Arctic plan—The act also called for FAA to develop a plan to designate
  permanent areas in the Arctic where small UAS could conduct 24-hour
  operations for research and commercial purposes. FAA published its plan in
  November 2012. 26 However, there are a number of policies, procedures, and
  details yet to be specified before flights can become widespread, such as
  establishing a “coordinating body” to manage traffic in the Arctic operational
  areas.

Of the eight remaining provisions with future deadlines, FAA has experienced
delays. Most notably:

• Issue a final rule on “Small UAS” by August 2014—FAA officials told us
  that they will not meet the act’s August 2014 deadline for issuing a rule to
  establish operating and performance criteria for small UAS operated within the
  line-of-sight of a pilot or ground observer below 400 feet. In June 2011, FAA
  planned to issue a Notice of Proposed Rulemaking, which is required in
  advance of a final rule. However, the Agency has not yet done so, nearly
  3 years later. FAA officials indicated that privacy concerns have been the
  primary contributor to this recent delay. In the fiscal year 2014 Omnibus
  Appropriations Act, 27 Congress directed FAA to conduct a study of the impact
  of UAS integration on individual privacy and submit a report on its findings.

• Safely integrate civil UAS into the NAS by September 2015—The act
  directs FAA to ensure the “safe integration of civil UAS into the NAS” by
  September 2015. FAA officials told us that by 2015 they expect to issue their
  rule for small UAS, approve a ground-based detect and avoid system, and have
  operational test ranges. However, these actions do not represent full, safe
  integration. FAA has not prioritized what needs to be done to achieve
  integration or established metrics to evaluate its progress. As a result, it
  remains unclear when FAA will achieve safe and full integration of UAS in
  U.S. airspace.




25
   The standard COA process was not meeting the needs of law enforcement, which tend to operate their UAS more
spontaneously than other UAS users.
26
   FAA, “Expanding Use of Small Unmanned Aircraft Systems in the Arctic Implementation Plan,” November 11,
2012.
27
   Pub.L. No. 92-313 (2014).
                                                                                  16


CONCLUSION
FAA’s primary mission remains ensuring the safety of the NAS. As such, the FAA
Modernization and Reform Act’s goal of integrating unmanned aircraft into the
NAS by 2015 presents unique and complex safety challenges for the Agency. Now
is the time, while UAS operations are currently still limited, for FAA to build
critical knowledge by collecting and analyzing UAS safety data and better
managing its oversight through the UAS integration office. However, as the
number of UAS operating in domestic airspace increases, safety risks will persist
until FAA establishes performance, air traffic control, and certification standards
to regulate UAS use. Until FAA is successful in establishing these standards and
adhering to a comprehensive integration plan with other public and private
stakeholders, it will remain unclear when, and if, FAA can meet its goals to safely
integrate UAS.

RECOMMENDATIONS
To enhance the effectiveness of FAA’s efforts to safely integrate UAS into the
NAS, we recommend that FAA:

1. Publish a report annually detailing ongoing research activities and progress
   FAA and other entities are making in their respective areas of responsibility to
   resolve technical challenges to safe integration of UAS.

2. Establish milestones for the work needed to determine the appropriate
   classification system for unmanned aircraft as a basis for developing the UAS
   regulatory framework.

3. Establish a timeline for developing standardized training and procedures for air
   traffic controllers responsible for UAS operations.

4. Assess and determine the requirements for automated tools to assist air traffic
   controllers in managing UAS operations in the NAS.

5. Create a standardized framework for data sharing and analysis between FAA
   and UAS operators by:

   a. validating a sample of the data it currently receives from UAS operators;

   b. finalizing an agreement with DoD for pertinent UAS operational data; and

   c. completing development of a sharing and analysis database.
                                                                               17


6. Develop and implement a consistent process to review and approve COAs
   across FAA regions, adopt measures that increase process efficiency and
   oversight, and provide necessary guidance and training to inspectors.

7. Complete airspace simulation and safety studies of the impact of UAS
   operations on air traffic control across all segments of the NAS.

8. Develop a mechanism to verify that the UAS Integration Office, all FAA lines
   of business, and field safety inspectors are effectively coordinating their UAS
   efforts.

9. Determine the specific types of data and information needed from each of the
   six planned test ranges to facilitate safe integration of UAS into the NAS.

10. Establish a more detailed implementation plan with milestones and prioritized
    actions needed to advance UAS integration in the near, mid, and long term.

11. Establish metrics to define progress in meeting implementation milestones as a
    basis for reporting to Congress.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided our draft report to FAA on May 7, 2014, and received its response on
June 12, 2014, which is included in its entirety as an appendix. FAA concurred
with all 11 recommendations. FAA proposed appropriate actions and completion
dates for recommendations 2, 3, 4, 6, 7, and 10, and we consider them resolved but
open pending completion of the planned actions. We are requesting FAA expand
its actions for recommendation 1 and provide additional information for
recommendations 5, 8, 9, and 11 as detailed below.

For recommendation 1, FAA agreed to publish a report by November 30, 2014,
detailing ongoing research activities and progress FAA and other entities are
making to resolve UAS technical challenges. However, the Agency plans to only
publish it internally. We request that FAA consider making the information
publically available, such as publishing it on the Agency’s public Web site to
provide transparency and ensure that all stakeholders, such as DoD and NASA,
have access to the information.

For recommendation 5, FAA requested that we close subparts 5a and 5b, stating
that the Agency has validated DoD mishap data and reached data sharing
agreements with DoD. However, for 5a, FAA did not include its planned actions
for validating a sample of the data received by the UAS Integration Office through
COA agreements, as we recommended. For 5b, we recognize that FAA has
                                                                               18


agreements to receive some data from DoD. However, as we noted in our report,
FAA officials told us these data are not yet useful because they lack detail. Our
intent was for FAA to finalize an agreement with DoD to collect additional data,
such as airworthiness and pilot training data. FAA and DoD have been discussing
arrangements to obtain these data since June 2013. Therefore, we request that
FAA provide additional information on how and when it plans to finalize an
agreement with DoD to collect the remaining data it needs.

FAA requested that we close recommendation 8, stating that the Agency plans to
add agenda items to executive-led UAS meetings and weekly staff meetings to
solicit feedback on the effectiveness of coordination. While this action may meet
the intent of our recommendation, FAA did not provide sufficient information to
close it. Therefore, we request additional information on FAA’s process for
validating that its proposed actions address our recommendations and a target date
for when this action will be completed.

For recommendation 9, FAA stated that the Agency is working with each test site
to understand planned research activities. Additionally, FAA stated that if the
research is applicable and available, the Agency will determine what data should
be collected and request results of studies and relevant data from the test sites.
FAA stated this would be an ongoing activity and the results would be available
by December 31, 2017. However, our recommendation was specifically aimed at
encouraging FAA to determine the data it needs early in the process so it can more
effectively use the test sites to identify and reduce UAS integration risks.
Therefore, we request the Agency provide information on actions it will take to
more timely identify the specific types of data and information needed from each
of the six test sites, as we recommended.

FAA requested that we close recommendation 11, stating that beginning in 2014,
annual updates to the UAS Roadmap will include adjustments to goals, metrics,
and target dates. However, it is not possible to assess whether FAA’s planned
actions meet the intent of our recommendation until FAA publishes the next
update of the UAS Roadmap. Therefore, we request that the Agency provide us
with documentation that this action has been implemented. In addition, FAA did
not provide a specific target date for when this action will be completed.

ACTIONS REQUIRED
FAA provided appropriate planned actions and completion dates for
recommendations, 2, 3, 4, 6, 7, and 10, and we consider these recommendations
resolved but open pending completion of the planned actions. We are requesting
FAA to expand its planned actions in response to recommendation 1 and provide
additional information for recommendations 5, 8, 9, and 11, as detailed above. In
                                                                                 19


accordance with DOT Order 8000.1C, please provide this information within 30
days of this report. Until we receive this additional information, we consider these
recommendations open and unresolved.

We appreciate the courtesies and cooperation of FAA representatives during this
audit. If you have any questions concerning this report, please call me at (202)
366-0500 or Robin P. Koch, Program Director, at (404) 562-3770.

                                         #

cc: DOT Audit Liaison, M-1
    FAA Audit Liaison, AAE-100
                                                                                 20



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this audit between October 2012 and April 2014 in accordance with
generally accepted Government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit objectives.
Our audit objectives were to assess: (1) FAA’s efforts to mitigate safety risks for
integrating UAS into the NAS, and (2) FAA’s progress and challenges in meeting
the UAS requirements cited in the act.

To obtain information about FAA’s efforts to mitigate safety risks as it seeks to
integrate UAS into the NAS and to determine the status of FAA’s UAS-related
milestones in the FAA Modernization and Reform Act of 2012, we met with FAA
UAS Integration Office officials, including the office manager as well as program
managers for UAS safety, airworthiness, data management, and operational
initiatives. We collected data from the UAS Integration Office to verify fulfillment
of UAS milestones as mandated by the act. We examined documentation verifying
all UAS integration projects as well as planning documents that outline FAA’s
plans to integrate UAS safely into the NAS, including drafts of the UAS Roadmap
and Concept of Operations. We also visited the William J. Hughes Technical
Center to obtain information on FAA’s UAS research.

We interviewed FAA aviation safety inspectors assigned with UAS oversight
duties in four of seven randomly selected FAA regions to discern their UAS
responsibilities, their interactions with COAs, and their supervisory structure. We
also interviewed FAA air traffic controllers and management in three FAA ATC
centers that routinely handle UAS operations to determine the amount of UAS
they work and the challenges UAS pose to their regular air traffic procedures. We
reviewed COA applications, data requirements, and review processes along with
FAA interim guidance on UAS operational approval and air traffic control policies
and procedures. We also examined prior reports and studies, conducted by FAA
and other organizations, on the unique challenges posed by UAS and the existing
impediments to their safe integration into congested airspace.

We met with representatives from other Federal agencies and offices involved in
UAS integration, including DoD, NASA, and NTSB, and analyzed documentation
of their UAS-related work and research. We also met with JPDO officials
regarding their efforts at creating the Comprehensive Plan, and with officials from
RTCA to discuss UAS standards development. We analyzed drafts of the
Comprehensive Plan and RTCA’s Terms of Reference. We met with non-
government UAS stakeholders, including representatives from INSITU and
AeroVironment, to gather information about their work to certify UAS through
FAA’s Pathfinder initiative and reviewed their project plans and type certificates.


Exhibit A. Scope and Methodology
                                                                              21


We interviewed representatives from MITRE and the Massachusetts Institute of
Technology to obtain information on UAS research projects and their coordination
with FAA. We spoke with officials at New Mexico State University to obtain
information on their UAS test site and the challenges they faced as a test site
operator in the NAS. We also spoke with representatives of the Association for
Unmanned Vehicle Systems International and the National Air Traffic Controllers
Association to obtain their views on FAA’s UAS integration efforts.

The scope of work on internal controls was limited to gaining an understanding of
the status of FAA’s efforts to mitigate safety risks to integrating UAS into the
NAS, their progress in meeting UAS requirements in the FAA Modernization and
Reform Act of 2012, and FAA’s process for approving COAs. No deficiencies in
internal controls were found during our examination.




Exhibit A. Scope and Methodology
                                                                             22



EXHIBIT B. ORGANIZATIONS VISITED OR CONTACTED
Federal Aviation Administration

Headquarters
FAA Headquarters                                         Washington, DC
Unmanned Aircraft Systems Integration Office             Washington, DC
FAA Airspace Service                                     Washington, DC
Joint Planning and Development Office                    Washington, DC

FAA Technical Center
FAA William J. Hughes Technical Center                   Atlantic City, NJ

Air Traffic Organization
Albuquerque Air Route Traffic Control Center             Albuquerque, NM
Los Angeles Air Route Traffic Control Center             Palmdale, CA
Minneapolis Air Route Traffic Control Center             Farmington, MN
Eastern Service Center                                   College Park, GA

Flight Standards Service
Central Region                                           Kansas City, MO
Southern Region                                          College Park, GA
Western Pacific Region                                   Lawndale, CA
Northwest Mountain Region                                Renton, WA

Other Organizations

National Air Traffic Controllers Association             Washington, DC
United States Air Force                                  Washington, DC
RTCA                                                     Washington, DC
Association For Unmanned Vehicle Systems International   Arlington, VA
New Mexico State University                              Las Cruces, NM
MITRE                                                    McLean, VA
National Transportation Safety Board                     Washington, DC
National Aeronautics and Space Administration            Edwards, CA
AeroVironment, Inc.                                      Simi Valley, CA
Insitu, Inc.                                             Bingen, WA
Massachusetts Institute of Technology                    Cambridge, MA




Exhibit B. Organizations Visited or Contacted
                                                                                                                        23



EXHIBIT C. STATUS OF FAA’S IMPLEMENTATION OF HR 658
UAS MILESTONES (AS OF JANUARY 2014)

 Section           Description                       Deadline      Progress   Status


 334c              Establish agreements to           5/14/2012                Met — FAA made changes to the COA
                   simplify process for issuing                               process to shorten the timeframes needed
                   COAs for public UAS in the                                 for approval.
                   NAS.
                                                                              Implemented Late – FAA completed a
                                                                              streamlined COA process via MOUs with
                                                                              DoD, NASA, and DOJ in March 2013.

 332c(1)           Establish program for             8/12/2012                Implemented Late – On December 30, 2013,
                   integrating UAS into the                                   FAA announced the test-site applicants
                   NAS at six test ranges.                                    chosen for the six test ranges.

 332d              Develop plan to designate         8/12/2012                Implemented Late – FAA’s Arctic Plan was
                   permanent areas in the                                     signed on November 1, 2012, and was made
                   Arctic where small UAS                                     available to the public on FAA’s Web site on
                   may operate 24 hours/day                                   December 6, 2012.
                   for research and
                   commercial purposes.

 333               Determine if certain UAS          8/12/2012                Implemented Late – FAA issued type
                   may operate safely in the                                  certificates (using the 21.25 restricted
                   NAS before completion of                                   category certification) to ScanEagle and
                   the comprehensive plan                                     Puma UAS to operate in the Arctic in July
                   and rulemaking.                                            2013, stipulating that certain UAS could
                                                                              operate in restricted areas of the NAS prior
                                                                              to the issuance of the comprehensive plan.

 332a(1)           Develop a comprehensive           11/10/2012               Implemented Late – JPDO was assigned to
                   plan to safely accelerate the                              develop the comprehensive plan. However,
                   integration of UAS into the                                the document had to undergo substantial
                   NAS.                                                       revisions during an interagency review
                                                                              process.

 334a              Issue guidance regarding          11/10/2012               Implemented Late – On January 22, 2013,
                   the operation of public-use                                the FAA issued notice N8900.207, which
                   UAS including expediting                                   provides policies necessary for reviewing
                   the UAS approval process.                                  and evaluating the safety and interoperability
                                                                              of proposed UAS flight operations in the
                                                                              NAS, and outlines best practices and
                                                                              procedures that FAA has used in prior UAS
                                                                              approvals.

 332a(4)           Submit copy of                    2/14/2013                Implemented Late – After an extended
                   comprehensive plan to                                      executive coordination and interagency
                   Congress.                                                  review process, FAA submitted the plan on
                                                                              November 6, 2013.




       - Provision Implemented and Statutory Deadline Met

       - Provision Implemented but Missed Statutory Deadline

       - Provision Not Implemented and Statutory Deadline Missed

       - Deadline in Future


Exhibit C. Status of FAA’s Implementation of HR 658 UAS Milestones (as of
January 2014)
                                                                                                                         24




 Section          Description                         Deadline      Progress   Status


 332c(4)          Make operational at least           2/14/2013                Implemented Late – FAA announced the
                  one project at a test range.                                 six test sites in December 2013. The first
                                                                               test site became operational in April 2014.

 332a(5)          Develop and make publically         2/14/2013                Implemented Late – OMB required FAA to
                  available 5-year roadmap for                                 make substantial revisions to its Roadmap,
                  the introduction of UAS into                                 and the document underwent a Legislative
                  the NAS.                                                     Referral Memorandum process. FAA
                                                                               published the Roadmap on
                                                                               November 7, 2013.

 332b(3)          Issue an update to the              8/14/2014                Deadline in future.
                  Administration’s policy
                  statement on UAS.

 332b(1)          Issue the Final Rule on small       8/14/2014                Deadline in future. FAA officials stated that
                  UAS.                                                         the Agency will be unable to meet this
                                                                               deadline.

 332b(2)          Issue a NPRM to implement           8/14/2014                Deadline in future.
                  recommendations of the
                  comprehensive plan.

 332a(3)          The safe integration of civil       9/30/2015                Deadline in future. FAA officials stated that,
                  UAS into the NAS.                                            by this date, they plan to have the test sites
                                                                               operational, issue the small UAS rule, and
                                                                               approve a ground-based detect-and-avoid
                                                                               system available for certain UAS.

 332b(2)          Issue final rule on integration     12/14/2015               Deadline in future.
                  of all UAS into the NAS.

 334b             Develop and implement               12/31/2015               Deadline in future.
                  operational and certification
                  requirements for the
                  operation of public UAS in
                  the NAS.

 332c(1)          Termination of program for          2/14/2017                Deadline in future.
                  integrating UAS into the NAS
                  at six test ranges.

 332c(5)          Submit report of findings and       5/15/2017                Deadline in future.
                  conclusions concerning
                  projects from six test ranges.



        - Provision Implemented and Statutory Deadline Met

        - Provision Implemented but Missed Statutory Deadline
        - Provision Not Implemented and Statutory Deadline Missed

        - Deadline in Future




Exhibit C. Status of FAA’s Implementation of HR 658 UAS Milestones (as of
January 2014)
                                                           25



EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT
Name                                    Title

Robin Koch                              Program Director

Marshall Jackson                        Project Manager

Mark Perrill                            Senior Analyst

Curt Boettcher                          Senior Analyst

Andrew Farnsworth                       Senior Analyst

Audre Azuolas                           Writer/Editor




Exhibit D. Major Contributors to This Report
APPENDIX. AGENCY COMMENTS                                                                          26




                    Federal Aviation
                    Administration

Memorandum
Date:            June 12, 2014
To:              Matthew E. Hampton, Assistant Inspector General for Aviation
From:            H. Clayton Foushee, Director, Office of Audit and Evaluation, AAE-1
Subject:         Federal Aviation Administration’s (FAA) Response to Office of Inspector
                 General (OIG) Draft Report: Integration of Unmanned Aircraft Systems (UAS)
                 into the National Airspace System (NAS)



Since its inception in 2013, the UAS Integration Office (AFS-80) has been responsible for the
oversight of all Agency UAS activities. Tasked with fulfilling the mandates set forth in the
FAA Modernization and Reform Act of 2012 (the Act), the office has accomplished many
goals, despite facing the numerous challenges that come with an entirely new undertaking. In
2013 – 2014, the FAA established six UAS test sites, published the “Integration of Civil
Unmanned Aircraft Systems (UAS) in the National Airspace System (NAS) Roadmap”,
published the “Unmanned Aircraft Systems (UAS) Comprehensive Plan”, simplified the
Certificate of Waiver or Authorization (COA) process, and published the “Expanding Use of
Small Unmanned Aircraft Systems in the Arctic Implementation Plan.”

The Small UAS Rule is one of the FAA Administrator’s top priorities, and the Notice of
Proposed Rulemaking is expected to be published later this year. Rulemaking is very complex,
and the FAA wants to ensure that the Agency strikes the right balance of requirements for
small UAS to help foster growth in this emerging industry. Finally, it is important to note that
the Act requires safe – not full – integration of UAS into the NAS by September 2015.
Integrating UAS into the complicated U.S. airspace requires an incremental approach, and one
that will allow the NAS processes currently in place, as well as those under development, to
effectively ensure safety both in the air and on the ground.

AFS-80 continues to work on a number of issues which require resolution in order for safe
integration to occur. First, work is being done in conjunction with the Department of Defense
(DoD), the National Aeronautics and Space Administration (NASA), and the MITRE
Corporation (MITRE) on Detect and Avoid systems and the establishment of performance and
certification standards. Processes regarding the collection of safety data continue to improve
and will evolve as the six test sites provide additional data collected during their operations.
Safety risk management documents are being developed regarding all classes of airspace and
will aid in the understanding and mitigation of potential hazards that may arise as integration


Appendix. Agency Comments
                                                                                                                            27


continues. Additionally, work is underway to develop training programs and procedures for air
traffic controllers, and the COA process continues to be streamlined. It is anticipated that
limited commercial UAS operations will be authorized in advance of the Small UAS Rule,
using provisions granted within Section 333 of the Act as a basis for authorization.

Our mission is the safe, efficient, and timely integration of UAS into the NAS. Though there
have been delays in the completion of tasks mandated in the Act, many accomplishments have
occurred. Safely integrating UAS into the NAS is a huge undertaking, and despite a number of
challenges, including the identification of staff and other resources, as well as the impact of
furloughs during the government shutdown, significant progress has been made in UAS
integration.

Recommendations and Responses

Recommendation 1: Publish a report annually detailing ongoing research activities and progress
FAA and other entities are making in their respective areas of responsibility to resolve technical
challenges to safe integration of UAS.

Response: Concur. AFS-80 is developing a detailed inventory of past and ongoing research
activities, leveraging the Joint Planning and Development Office’s (JPDO) 1 research inventory
and feedback from other government partners. The inventory will include the relevant UAS
integration research of DoD, NASA, and other government and industry partners. This inventory
will be updated by the FAA and its research partners as changes to the research occur.

AFS-80 is also a member of the DoD’s Science and Research Panel (SARP), and is collaborating
with NASA and DoD through this panel to prioritize key research tasks. These priorities will be
updated as needed after each SARP meeting and documented in the detailed research inventory
outlined above. Research progress will be summarized in this inventory, in addition to being
documented in research reports and other artifacts. The initial research inventory will be
available on the AFS-80 internal SharePoint site by November 30, 2014. This will enable
effective sharing and collaboration from all research partners and AFS-80 will make this
information available to the OIG.

Recommendation 2: Establish milestones for the work needed to determine the appropriate
classification system for unmanned aircraft as a basis for developing the UAS regulatory
framework.

Response: Concur. It is envisioned that UAS classification for the purposes of design and
airworthiness approvals will be approached in two phases. The first phase would be to develop
the comprehensive type and airworthiness certification approach into groups of UAS based on
the pre-existing diversity and variation within the UAS operational community, likely
differentiated by the operational risk of introducing them into the NAS. The second phase would
add appropriate classification within the type and airworthiness certification framework in order
to categorize like-featured systems (e.g., complex, non-complex, airplane, rotorcraft) and

1
    Congress eliminated funding for JPDO earlier this year. It has been replaced by the ‘Interagency Planning Office’ within the
    Next Generation Air Transportation System (NextGen) Office.


Appendix. Agency Comments
                                                                                                 28


establish certification criteria in each of those UAS categories to maximize the effectiveness of
FAA certification resources.

The formal establishment of these milestones and the tasks associated with implementing them
require acceptance from organizational stakeholders involved in type design and airworthiness
approval processes within the FAA in addition to the international community. This will provide
confidence that the classification criteria are broadly accepted conceptually, prior to formalizing
program plans and milestones associated with developing the technical underpinnings of the
concepts into processes, policies, guidance and regulations. This will also provide recognition of
those regulatory artifacts supporting international access to UAS. AFS-80 anticipates
completion of Phase 1 by September 30, 2015 and Phase 2 by September 30, 2016.

Recommendation 3: Establish a timeline for developing standardized training and procedures
for air traffic controllers responsible for UAS operations.

Response: Concur. Establishment of a timeline is already underway and is scheduled for
completion by October 30, 2014. AFS-80 is working closely with the offices of primary
responsibility (OPR), Air Traffic Organization’s (ATO) Safety and Technical Training (AJI),
and the Air Traffic Procedures Directorate, to establish a timeline to support this effort. To date,
there have been two e-Learning Management System (eLMS) courses created (in 2009 and
2013) that have provided training for UAS operating characteristics and terminology for the
controller workforce. Research is also underway at the FAA’s William J. Hughes Technical
Center to address UAS contingency operating procedures in the NAS (e.g., lost link). This
research will inform decision-makers on the correct direction and areas of emphasis for UAS
procedural development and implementation. Additionally, the FAA is working with the DoD
(USNORTHCOM research initiative) in formulating potential UAS procedures for specific DoD
airframes.

Recommendation 4: Assess and determine the requirements for automated tools to assist air
traffic controllers in managing UAS operations in the NAS.

Response: Concur. This work is already underway and is scheduled for completion by October
31, 2015. AFS-80 is working with the OPR, the ATO’s Operational Concepts, Validation and
Requirements Directorate, to identify operational requirements, which include automation tools,
to assist the controller in providing a service. To date, successful deployment of specific UAS
information has been accomplished and is now available to controllers through the En Route
Information Display System. Additional requirements are being identified through concept
validation work based on FAA’s UAS Concept of Operations.

Recommendation 5: Create a standardized framework for data sharing and analysis between
FAA and UAS operations by:
   a. Validating a sample of the data it currently receives from UAS operators;
   b. Finalizing an agreement with DoD for pertinent UAS operational data; and
   c. Completing development of a sharing and analysis database.



Appendix. Agency Comments
                                                                                               29


Response a: Concur. The Office of Accident Investigation and Prevention (AVP) receives
annual UAS mishap data from DoD under the Memorandum of Agreement (MOA) for the
Sharing of Mishap Information. AVP completed validation of the data in a standardized
framework for sharing and analysis on September 14, 2012. AVP can leverage this framework
for completion of the development of a sharing and analysis database within 60 days of
completion of recommendation 5c. The FAA requests that recommendation 5a be closed.

Response b: Concur. DoD has agreed to provide pertinent data via two separate but
complimentary reporting processes. The primary process used for data reporting and collection
is via the COA. The COA issued by the FAA to DoD proponents in order to accommodate their
operations in the NAS include clearly defined and detailed operational, incident, and accident
reporting data elements. The data reporting requirements contained in the COA represents a
finalized agreement to report pertinent safety-related data. DoD has been reporting this
information since 2010. Should the requirements for data as required by the COA process
change, FAA will coordinate the changes through established processes with the UAS Executive
Committee and/or DoD’s Policy Board on Federal Aviation. Additionally, the DoD Safety
Centers provide mishap data to AVP as required by the FAA-DoD MOA for the Sharing of
Mishap Information. As identified in Response 5a, AVP has validated the data received as a
result of the agreement; thus, the FAA request that recommendation 5b be closed.

Response c: Concur. AFS-80 is developing a fully integrated data sharing and analysis system
that provides data acquisition and querying functions; thereby providing the foundation for in-
depth root cause analysis of accident/incident data, improved COA tracking process and quality
of safety data, and enhanced mitigation strategies in support of AFS-80’s Safety Management
System Integration Plan. Currently, the transmission of data is provided by public operators
through COA Online, an automated web-based process. Proponents populate the pre-determined
formatted report templates and then transmit the report electronically via e-mail. Once the data
is received from the proponents, AFS-80 personnel manually enter it into a secure Access
database where it is stored for future analysis. The database gives AFS-80 the capability to track
specific operational and safety data, run queries based on selected criteria, and create reports.
This methodology was chosen as an interim process while AFS-80 works with MITRE Center
for Advanced Aviation System Development (CAASD) to develop a more sophisticated database
structure, including a secure online site. This database will meet AFS-80’s specifications and
will include merging all existing AFS-80 databases, reducing or eliminating manual data entry,
and improving analytic querying capabilities. The database prototype is currently in the
development stage, and is scheduled for completion by October 31, 2014.

Recommendation 6: Develop and implement a consistent process to review and approve COAs
across FAA regions, adopt measures that increase process efficiency and oversight, and provide
necessary guidance and training to inspectors.

Response: Concur. AFS-80, in coordination with the Flight Standards Training Division, has
completed and deployed three training courses. An introductory course (Introduction to UAS;
Course # 27100179) was released on September 30, 2013, and is available online in eLMS. This
course provides basic knowledge of the UAS elements and FAA oversight of UAS activities in
the NAS. Two courses for Aviation Safety Inspectors (ASI) were released in April 2014: UAS-



Appendix. Agency Comments
                                                                                                30


Initial, Course # 27100222; and UAS-Practical Application Workshop (PAW), Course #
21000049.

During the next three years, AFS-80 will work with MITRE CAASD to engineer an integrated
solution to efficiently accommodate increasing numbers of applications, rules, and complex
dependencies of the multi-step COA approval process. MITRE CAASD has assessed the current
COA process, collected and evaluated the needs of various users, and determined gaps. It will
identify operational and functional requirements, develop a prototype, provide design and system
requirements, and assess the process by using the prototype as an interim solution.

AFS-80 has also established a COA Standardization Working Group comprised of both ASI and
Air Traffic Control (ATC) Specialists located throughout the U.S. The group’s purpose is to
promote and ensure a nationally standardized process for COA processing by re-ordering the
process and paralleling the UAS COA process with that of manned aircraft. The new process
will establish a repeatable risk assessment process for like activities. By September 30, 2015, the
team will also produce new guidance for Flight Standards and Air Traffic personnel which
clearly delineates areas of responsibilities and eliminates duplication of work.

Recommendation 7: Complete airspace simulation and safety studies of the impact of UAS
operations on air traffic control across all segments of the NAS.

Response: Concur. This work is already underway. AFS-80 is working closely with AJI to
prioritize and conduct safety risk management panels (SRMPs) that best address airspace
integration needs. To date, three SRMPs have been completed and one is in progress. AFS-80
has identified the airspace classes (A, B, C, E, and G) 2 that will need to be completed, and is
working to complete a SRMP on each class of airspace as quickly as current staffing levels will
allow. Additionally, AFS-80 led a team to conduct site visits to four En Route facilities to
collect data on the impact of current UAS operations to ATC facilities. A detailed report was
written on the site visits and was used to validate current issues impacting ATC facilities. This
report can be used to support future safety studies and analysis when applicable. AFS-80 is on
schedule to have all SRMPs completed by October 31, 2015.

Recommendation 8: Develop a mechanism to verify that the UAS Integration Office, all FAA
lines of business, and field safety inspectors are effectively coordinating their UAS efforts.

Response: Concur. In June 2013, the FAA established the UAS Working Group (UASWG); an
ongoing, executive-led forum that reviews strategic Agency-wide UAS matters. The UASWG is
chaired by the Associate Administrator for Aviation Safety (AVS-1). The UASWG aims to
ensure cross-Agency decision-makers are aware of UAS-related integration activities, provide an
opportunity to collect input and to address issues in specific areas of responsibility, and ensure
UAS integration activities are coordinated on behalf of the Agency as a whole. In order to verify
that effective coordination is occurring, AVS-1 will solicit feedback from the UASWG members
at the end of each meeting. This will be implemented as an agenda item starting in June 2014.



2
    http://www.faa.gov/air_traffic/publications/atpubs/aim/aim0301.html#aim0301.html.1


Appendix. Agency Comments
                                                                                                  31


The UAS Safety and Data Management Section Manager holds weekly staff meetings that
includes all of the field safety inspectors supporting UAS integration efforts. Topics of
discussion at these meetings vary widely from general status updates to specific problem areas
encountered by inspectors. This forum provides AFS-80 and the field safety inspectors the
opportunity to hold open conversations on diverse areas of relevance and ensures that activities
are coordinated between Headquarters and the Regions. In order to verify that effective
coordination is occurring, the AFS-80 Manager will solicit feedback from the staff meeting
participants at the end of each meeting. This will be implemented as an agenda item starting in
June 2014. The FAA requests that this recommendation be closed.

Recommendation 9: Determine the specific types of data and information needed from each of
the six planned test ranges to facilitate safe integration of UAS into the NAS.

Response: Concur. Agreements with each UAS test site require them to provide operational
safety data (i.e., the same data required by a COA) to the FAA. The FAA is working with each
test site to understand their planned research activities. Based on the research conducted
throughout the life of the test site, the FAA will determine if and how the results will drive
integration activities and supplement the FAA’s UAS research and development portfolio. If the
research is applicable and available (i.e., not intellectual property or trade secrets), the FAA will
determine what data should be collected and request results of studies and relevant data from the
test sites. This will be an ongoing activity as test sites develop. The FAA anticipates completion
no earlier than 2017 and will provide the results by December 31, 2017.

Recommendation 10: Establish a more detailed implementation plan with milestones and
prioritized actions needed to advance UAS integration in the near, mid, and long term.

Response: Concur. AFS-80 is working with MITRE CAASD to develop a UAS Integration
Strategy to assist with the development of a UAS Program Plan that identifies the goals,
dependencies, issues, and specific milestones of a phased implementation approach for UAS
integration into the NAS over a five year implementation period. The strategy will depict the
management/governance goals, structure, and activities, as well as the system engineering and
integration mission, roles, and responsibilities. Finally, the strategy will define a clear path to
external agency and industry engagement and consensus-building. The anticipated completion
date for this plan is August 31, 2014.

Recommendation 11: Establish metrics to define progress in meeting implementation
milestones as a basis for reporting to Congress.

Response: Concur. Five-year goals, metrics, and target dates for UAS integration into the NAS
have been established and are contained in the FAA’s “Integration of Civil Unmanned Aircraft
Systems (UAS) in the National Airspace System (NAS) Roadmap” Appendix C. The Act
requires the Roadmap to be updated and published annually. The Roadmap is available online at
http://www.faa.gov/about/initiatives/uas/. Starting with the 2014 (second) edition,
accomplishments from the previous year and updates to the Appendix C goals, metrics, and
target dates will be noted in a separate Roadmap appendix. The FAA recommends closing this




Appendix. Agency Comments
                                                                                            32


recommendation as this activity has been completed and progress will be reported annually, per
requirements in the Act.




Appendix. Agency Comments
